NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL




          SEMIANNUAL REPORT
                       TO
              THE CONGRESS
         October 1, 2008 – March 31, 2009
                              TABLE OF CONTENTS



Inspector General’s Message                                i

NCUA and Office of Inspector General Mission Statements    1

Introduction                                               2

NCUA Organizational Chart                                  3

NCUA Highlights                                            5

Federally Insured Credit Union Highlights                 11
Legislative Highlights                                    12
Office of the Inspector General                           16
     Audit Activity                                       18
     Investigative Activity                               23
     Legislative and Regulatory Reviews                   26
Table I – Reports With Questioned Costs                   28

Table II – Reports With Recommendations That
Funds Be Put To Better Use                                29
Table III – Summary of OIG Activity                       30
Index of Reporting Requirements                           31
                        INSPECTOR GENERAL'S MESSAGE
                             TO THE NCUA BOARD
                              AND THE CONGRESS

The year 2009 marks the 75th Anniversary of the Federal Credit Union Act (FCUA),
originally signed in 1934. For three quarters of a century, the National Credit Union
Administration (NCUA) has protected insured credit union members and brought
stability to the credit union system. While the events of the past six months have been
unprecedented, NCUA has persevered in its mission and ensured the continued
strength of credit unions.

While the vast majority of NCUA regulated and insured credit unions remain safe and
sound, NCUA has not been immune from the economic turmoil. On March 20, 2009,
the NCUA Board placed two corporate credit unions, U.S. Central Federal Credit Union
and Western Corporate Federal Credit Union, into conservatorship to stabilize the
corporate credit union system and resolve balance sheet issues. These actions were
the latest in ongoing NCUA efforts since the start of the year to assist the corporate
credit union network under the Corporate Stabilization Plan. Moreover, in the last
reporting period, NCUA has seen the failure of three (3) natural person credit unions.

In the face of these events, the NCUA Office of Inspector General (OIG) has had a
more critical role than ever in its oversight and accountability functions. The FCUA, 12
U.S.C. 1790d(j), requires that the IG conduct a review when the National Credit Union
Share Insurance Fund (NCUSIF) has incurred a material loss with respect to a credit
union. A material loss is defined as (1) exceeding the sum of $10 million; and (2) an
amount equal to 10% of the total assets of the credit union at the time at which the
Board initiated assistance or was appointed liquidating agent. Once the NCUA
calculates the estimated loss associated with an NCUA-insured institution, the OIG
begins its review. The material loss review (MLR) provides an independent analysis of
why the institution failed and resulted in a material loss, evaluates the NCUA’s
supervision of the credit union, and may provide additional information valuable for civil
and/or criminal investigations into the failure. As we reported in our last Semiannual
Report, conducting MLR’s currently consumes by far the majority of the OIG’s audit

                                            i
resources. We have recently added an additional auditor to the OIG staff to assist us in
handling the increasing MLR workload.

In the past reporting period, this office issued one final MLR and at the time of the
drafting of this report, a second was scheduled for issuance. We are also in the midst
of conducting two (2) as yet unreported MLRs, and are in the planning stages for two (2)
additional ones. We continue to consult and coordinate with the other financial
regulatory OIGs who are similarly engrossed in conducting MLRs, to ensure as
standard an approach as possible and to share best practices. We remain committed to
maintaining the NCUA OIG’s high standards of excellence in conducting these reviews,
even as the demands on our small audit staff continue to escalate.

Finally, on October 14, 2008, the IG Reform Act was signed by President Bush. Among
other provisions, this legislation strengthens the IG’s independence, elevates the stature
of the IG so that the position is commensurate with the other agency senior level
executives, creates a forum for IGs to coordinate and share best practices, and requires
that IG reports are easily accessible to the public in a timely manner. We look forward
to working with our colleagues in the IG community as we all strive to ensure the
longstanding tradition of integrity and transparency in federal programs and operations.

We also recommit to the IG mission and working with the Congress, the NCUA, and
other stakeholders so that we can continue our oversight work for the public interest.




                                                   William A. DeSarno
                                                   Inspector General




                                            ii
    NCUA OIG Semiannual Report to The Congress                    March 2009




                               THE NCUA MISSION


NCUA’s charge is to foster the safety and soundness of federally insured credit unions
and to better enable the credit union community to extend the availability of financial
services for provident and productive purposes to all who seek such service, while
recognizing and encouraging credit unions’ historical emphasis on extension of financial
services to those of modest means.

The NCUA’s mission is accomplished by managing the National Credit Union Share
Insurance Fund in an efficient and prudent manner through an effective supervision
program and a regulatory environment that encourages innovation, flexibility and
continued focus on attracting new members and improving financial service to existing
members.




              THE OFFICE OF INSPECTOR GENERAL MISSION


The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
operations, and detects and deters fraud, waste, and abuse, thereby supporting the
NCUA’s mission of monitoring and promoting safe and sound federally insured credit
unions.

We accomplish our mission by conducting independent audits, investigations, and other
activities, and by keeping the NCUA Board and the Congress fully and currently
informed of our work.




                                           1
    NCUA OIG Semiannual Report to The Congress                   March 2009




                                 INTRODUCTION

The National Credit Union Administration (NCUA) was established as an independent,
federal regulatory agency on March 10, 1970. The agency is responsible for chartering,
examining, supervising, and insuring federal credit unions. It also insures state-
chartered credit unions that have applied for insurance and have met National Credit
Union Share Insurance requirements. The NCUA is funded by the credit unions it
supervises and insures. As of December 31, 2008, the NCUA was supervising and
insuring 4,847 federal credit unions and insuring 2,959 state-chartered credit unions, a
total of 7,806 institutions. This represents a decline of 189 federal and 106 state-
chartered institutions since December 31, 2007, for a total decline of 295 credit unions
nationwide, primarily as a result of mergers.



                               Federally Insured Credit Unions


                10000
                 9000
                 8000
                        3442    3302
                 7000                   3173       3065   2959
                 6000
                 5000
                 4000
                 3000   5572    5393    5189       5036   4847
                 2000
                 1000
                    0                                                FISCUs
                        2004    2005    2006       2007   2008
                                                                     FCUs




The NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board
is responsible for the management of the National Credit Union Administration,
including the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity
Facility, and the Community Development Revolving Loan Fund.




                                               2
   NCUA OIG Semiannual Report to The Congress                  March 2009




The NCUA executes its program through its central office in Alexandria, Virginia and
regional offices in Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin,
Texas; and Tempe, Arizona. The NCUA also operates the Asset Management and
Assistance Center (AMAC) in Austin, Texas. Please refer to the NCUA organizational
chart below.




                                         3
   NCUA OIG Semiannual Report to The Congress                                         March 2009




The NCUA Board adopted its 2009 budget of $177,863,682 on November 20, 2008.
The Full-Time Equivalent (FTE) staffing authorization for 2009 is 1,016, representing
an increase of 51 FTEs from 2008.




                                                 NCUA Authorized Staff



           1200


           1000


           800


           600


           400


           200


             0
                                   2005          2006       2007      2008          2009




                                                    NCUA Budget Dollars

                             180
                             160
                             140
                  Millions




                             120
                             100
                              80
                              60
                              40
                              20
                               0
                                          2005     2006    2007     2008     2009




                                                              4
    NCUA OIG Semiannual Report to The Congress                    March 2009



                                NCUA HIGHLIGHTS


NCUA Conserves U.S. Central and Western Corporate Credit Unions

On March 20, 2009, the National Credit Union Administration (NCUA) Board placed
U.S. Central Federal Credit Union (U.S. Central), Lenexa, Kansas, and Western
Corporate (WesCorp) Federal Credit Union, San Dimas, California, into
conservatorship to stabilize the corporate credit union system and resolve balance
sheet issues. These actions furthered previous NCUA efforts to assist the corporate
credit union network under the Corporate Stabilization Plan. Corporate credit unions
provide investment and liquidity services to consumer-owned natural person credit
unions.

U.S. Central and Wescorp were placed into conservatorship to protect retail credit
union deposits and the interest of the National Credit Union Share Insurance Fund
(NCUSIF) as well as to remove any impediments to the Agency’s ability to take
appropriate mitigating actions that might be necessary.         Service continued
uninterrupted at both credit unions, and members were advised that they were free to
make deposits and access funds.

The Federal Credit Union Act (FCUA) authorizes the NCUA Board to appoint itself
conservator when necessary to conserve the assets of a federally-insured credit union,
preserve member assets, and protect the NCUSIF.

At the time of the conservatorship, U.S. Central had approximately $34 billion in assets
and 26 retail corporate credit union members. WesCorp had $23 billion in assets and
approximately 1,100 retail credit union members. The member accounts of both credit
unions were guaranteed under provisions of the previously announced NCUA Share
Guarantee Program, through December 31, 2010. The Program extends NCUSIF
coverage to all funds held by the two corporate credit unions.

Following initial actions taken by the NCUA Board on January 28, 2009, NCUA staff
completed a detailed analysis and stress test of the mortgage and asset backed
securities held by all corporate credit unions, including US Central and WesCorp. The
review determined that an unacceptably high concentration of risk resided only in the
two conserved corporate credit unions. Securities held by US Central and WesCorp
deteriorated further since late January 2009, contributing to diminished liquidity and
payment system capacities, as well as further loss of confidence by member credit
unions and other stakeholders.

Additional mortgage and asset backed security analysis and assessment of the two
credit unions by NCUA staff enabled NCUA to refine the NCUSIF’s required reserve for
potential loss. The findings indicated an overall estimated reserve level, previously
announced by NCUA, had increased from $4.7 to $5.9 billion.

                                           5
    NCUA OIG Semiannual Report to The Congress                     March 2009




NCUA Chairman Michael Fryzel Asks Senate to Preserve Independence of NCUA and
NCUSIF

On March 19, 2008, Chairman Fryzel testified before the Senate Committee on
Banking, Housing and Urban Affairs on ―Modernizing Bank Supervision and
Regulation.‖ In his testimony, Chairman Fryzel underscored the public policy benefits
of a distinct, federal credit union regulatory and insurance entity, while calling for an
improved federal regulatory standard setting authority. In his accompanying statement
to the Committee, Chairman Fryzel discussed the overall strength of the credit union
industry and the statutory and regulatory differences that have provided consumers
with a viable cooperative alternative in the financial services marketplace. Chairman
Fryzel also underscored the solid performance of the NCUSIF, noting that ―even in the
face of significant stress in the corporate credit union part of the system, the Fund has
proven durable.‖

Chairman Fryzel described the prudential benefits of an integrated credit union
regulatory/insurance function at the federal level.       Chairman Fryzel further
recommended a federal oversight entity, charged with establishing general safety and
soundness standards, issuing principles-based guidance and monitoring systemic risk.

NCUA Executive Director Marquis Testifies on Insurance Fund Issues

On March 19, 2009, NCUA Executive Director David Marquis testified before the Senate
Banking, Housing, and Urban Affairs Committee on deposit insurance issues – making
the $250,000 insurance protection permanent; extending the National Credit Union
Share Insurance Fund (NCUSIF) replenishment to 5 years; increasing the NCUSIF
borrowing authority; and providing systemic risk authority to NCUA.

Marquis stated NCUA’s agreement with Section 204(a) of H.R. 1106, the ―Helping
Families Save Their Homes Act of 2009,‖ to make the temporary increase to $250,000
of the standard maximum share insurance amount (SMSIA) permanent.                 Marquis
testified that reverting the general limit for share insurance coverage to $100,000 at the
end of 2009 would likely be a destabilizing event, affecting public confidence and
creating burdens for institutions and consumers.

With regard to the NCUSIF replenishment, Marquis explained to the Committee that, if
the NCUSIF equity ratio falls below 1.20 percent, NCUA is required to assess a
premium and, if necessary, credit unions must recapitalize their 1 percent deposit.
Marquis requested that Congress approve an extension of the time the agency has to
restore the equity ratio from one to five years. Marquis also stated NCUA’s request to
increase the maximum cap when premiums may be charged from 1.30 percent to 1.35
percent to provide another anti-cyclical tool and thereby reduce the likelihood of
charging premiums in adverse times

                                            6
    NCUA OIG Semiannual Report to The Congress                    March 2009




On behalf of NCUA, Marquis also requested that Congress increase the maximum
amount the NCUSIF may borrow from Treasury to $6 billion. Marquis explained that
Congress established the NCUSIF in 1970, and provided authority for the Fund to
borrow a maximum $100,000,000 from the Treasury. Over time, Marquis reported, the
size of the credit union system, the amount of insured shares, and the size of the
NCUSIF have grown significantly. Marquis stated that the $6 billion figure was a more
realistic number based on the size of the industry today versus the early 1970’s.

Finally, Marquis requested that Congress amend the Federal Credit Union Act to
provide NCUA with a systemic risk authority similar to that of FDIC.

NCUA Appoints Melinda Love New Director of the Office of Examination and Insurance

On February 10, 2009, the NCUA Board appointed Region V Director Melinda Love as
Director of the Office of Examination and Insurance (E&I) at NCUA Headquarters in
Alexandria, Virginia effective March 16, 2009. As E&I Director, Love will be
responsible for overseeing the NCUA supervision and examination, risk management,
and data collection programs. A seasoned NCUA executive, Love has served as
Regional Director of the Region V office for 5½ years, as well as Director of the former
Chicago regional office. Love is a past NCUA Deputy Executive Director, and also
served as Deputy Director within E&I. Her NCUA career began in 1986 as an
examiner in Northern California. She is a former principal examiner, problem case
officer, supervision analyst, supervisory examiner and acting director of special
actions.

NCUA Board Approves Corporate Stabilization Efforts

On January 28, 2009, the NCUA Board approved a series of actions designed to
enhance and support the corporate credit union system, which was facing
unprecedented strains on liquidity and capital due to extraordinary market disruptions
and the current economic climate.

NCUA acted to add stability to and strengthen corporate credit unions using a three-
pronged approach designed to: (1) maintain liquidity; (2) strengthen capital; and (3)
restructure the corporate system.    Consequently, the NCUA Board approved the
following actions:

         Guaranteed uninsured shares at all corporate credit unions through February
          2009, and established a voluntary guarantee program for uninsured shares
          of all corporate credit unions through December 31, 2010;
         Issued a $1 billion capital note to U.S. Central Federal Credit Union (U.S.
          Central);
         Issued an Advance Notice of Public Rulemaking (ANPR) on restructuring the
          corporate credit union system; and

                                           7
    NCUA OIG Semiannual Report to The Congress                     March 2009


         Declared a premium assessment to restore the NCUSIF equity ratio to 1.30
          percent—to be collected in 2009.

Previous NCUA actions to address the situation included approval of U.S. Central’s
conversion of membership capital to paid-in capital, implementing a temporary
corporate credit union liquidity guarantee program on new unsecured debt obligations,
obtaining a temporary lifting of the appropriations cap on the Central Liquidity Facility
(CLF), negotiating assistance from both the Federal Reserve and Treasury, and
sending letters of support to the Federal Home Loan Banks. Using CLF lending
authority in concert with the Treasury, NCUA also initiated the Credit Union System
Investment Program (CU SIP) and Credit Union Homeowners Affordability Relief
Program (CU HARP). These programs were designed to provide additional liquidity
resources to corporate credit unions.

Chairman Fryzel Urges Treasury Secretary Geithner to Reconsider TARP Aid for Credit
Unions

In a letter to newly sworn-in Secretary of the Treasury Timothy F. Geithner, dated
January 27, 2009, Chairman Fryzel congratulated Secretary Geithner and called upon
him to expand options for credit union participation in the Troubled Assets Relief
Program (TARP). Specifically, Chairman Fryzel requested that Secretary Geithner (1)
reauthorize the opportunity for TARP participation on the part of credit unions; and (2)
assist the NCUA in establishing a program parallel to the one allowing the Federal
Deposit Insurance Corporation (FDIC) to temporarily guarantee deposits in non-
interest bearing transaction accounts at FDIC-insured institutions without limit.
Chairman Fryzel explained that the equivalent accounts at credit unions are known as
business share draft accounts.

Chairman Fryzel stated his belief that the policies of the NCUSIF should be generally
consistent with those of the FDIC and, as such, there should be full share insurance
coverage for non-interest bearing business share draft accounts through 2009.
Chairman Fryzel requested that the Treasury Department work with NCUA to establish
a parallel guarantee in order to avoid any unintended impact on the credit union
system.

NCUA Launches CU SIP, CU HARP Initiatives

On December 9, 2008, after receiving concurrences from the Federal Reserve Board
and the Secretary of the Treasury, the NCUA Board announced two new initiatives for
CLF extensions of credit to credit unions for system liquidity needs. The two initiatives
were the Credit Union System Investment Program (CU SIP) and the Credit Union
Homeowners Affordability Relief Program (CU HARP).

Under the CU SIP, participating credit unions were authorized to borrow from the CLF
and invest the proceeds in participating corporate credit unions. Specifically, the CLF

                                            8
   NCUA OIG Semiannual Report to The Congress                    March 2009



would provide a secured, one-year advance to the credit union, which it must, in turn,
concurrently invest in a fixed-rate, matched term, guaranteed CU SIP Note issued by a
participating corporate credit union. By March 2009, over $7.7 billion was issued to
corporate credit unions in the first two subscriptions.

The CU HARP is a two-year, $2 billion program intended to assist homeowners who
are facing delinquency, default, or foreclosure on their mortgages, especially in the
face of diminished home prices. Under the CU HARP, participating creditworthy credit
unions were authorized to borrow from the CLF, and receive as much as an additional
100-basis point spread over the cost of borrowing if they modified at-risk mortgages,
primarily by lowering interest rates and corresponding monthly payments. Under the
CU HARP, the CLF would make a secured, one year advance to the credit union,
which would be renewable for a term of one year. The credit union must, in turn,
concurrently invest the proceeds in a two-year, guaranteed CU HARP Note issued by a
participating corporate credit union.

NCUA Board Names David M. Marquis Executive Director

On December 2, 2008, the NCUA Board named David M. Marquis to assume the role
of NCUA Executive Director (ED) upon the retirement of ED J. Leonard Skiles, who
retired at year end. Marquis had served as the Director, E&I, since 1994. As E&I
Director, Marquis was responsible for the sound operation of the NCUSIF, and
oversaw the examination and supervision program for federal and federally insured
credit unions.

Marquis began his career with NCUA as an examiner in Baltimore in 1978. During his
tenure, Marquis served as a supervisory examiner, Associate Regional Director and
Regional Director, as well as Deputy Director of E&I.

Marquis replaced Skiles, who left the agency at year end after a 38-year NCUA career
that began as a staff attorney in the Office of General Counsel in 1973. During his
tenure, Skiles served as the agency’s Deputy General Counsel and was Director of the
Austin regional office several times. He also formed and was President of the Asset
Management and Assistance Center in Austin. Skiles was appointed NCUA ED in
February 2001.

NCUA Approves Corporate Credit Union Loan Guarantee Program

On October 16, 2008, the NCUA Board approved a temporary corporate credit union
liquidity guarantee program intended to operate from October 16, 2008, through June
30, 2009. Effective October 16, the NCUSIF began providing federally insured
corporate credit unions with a 100 percent guarantee on new unsecured debt
obligations, subject to terms detailed in the program.



                                          9
   NCUA OIG Semiannual Report to The Congress                    March 2009



The NCUSIF guarantee applied to new unsecured debt obligations issued by eligible
corporate credit unions on or before June 30, 2009, and maturing on or before June
30, 2012. This included promissory notes, commercial paper, inter-banking funding,
and any unsecured portion of secured debt.

According to the program, the amount of obligations covered by the guarantee per
eligible corporate credit union could not exceed the greater of:

(a) 100 percent of the eligible corporate credit union’s maximum unsecured debt
obligations outstanding during the period September 30, 2007, through September 30,
2008;

(b) an amount determined by written approval of the director, Office of Corporate
Credit Unions (OCCU), with the prior concurrence of the Director, E&I, not to exceed
$100 million; or

(c) an amount determined by the NCUA Board.

The program also provided that all corporate credit unions were automatically covered
for debt obligations issued through November 17, 2008, and allowed corporate credit
unions to elect to opt out of the program by providing notice to OCCU.

For those credit unions participating in the program, the NCUSIF would charge a fee of
75 basis points per year on the outstanding balance of guaranteed debt obligations.
The program is similar to the ―Temporary Liquidity Guarantee Program‖, announced by
the FDIC on October 14, 2008, and was intended to provide corporate credit unions
with competitive standing in the debt market.

NCUA Votes to Increase Share Insurance Maximum Coverage to $250,000

By notation vote on October 15, 2008, the NCUA Board amended the share insurance
rule to reflect the increase in standard maximum coverage from $100,000 to $250,000,
in compliance with the ―Emergency Economic Stabilization Act of 2008.‖ One of the
key provisions of the economic stabilization legislation was a temporary increase in
insurance limits for accounts backed by the NCUSIF, increasing share insurance
coverage from $100,000 to $250,000. The increase was effective on the date of
enactment, October 1, 2008, through December 31, 2009. The boost in insurance
coverage is the same as that provided for the FDIC, which insures bank deposits.
NCUA’s rule was also amended to improve member insurance protection on ―custodial
loan accounts,‖ renamed ―mortgage serving accounts,‖ identical to a recent FDIC rule
amendment.




                                          10
    NCUA OIG Semiannual Report to The Congress                     March 2009




             FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

Credit unions submit quarterly call reports (financial and operational data) to the NCUA.
An NCUA staff assessment of the December 31, 2008, quarterly call reports submitted
by all federally insured credit unions found that key financial indicators were mixed.


Key Financial Indicators Showing Concern

Looking at the December 31, 2008 quarterly statistics for major balance sheet items and
key ratios shows the following for the nation’s 7,806 federally insured credit unions:
assets grew 7.74 percent; net worth to assets ratio decreased from 11.43 to 10.93
percent; the loan to share ratio decreased from 83.32 percent to 83.10 percent; the
delinquency ratio increased from .93 to 1.37 percent; and credit union return on average
assets decreased from .64 percent to .31 percent.


Savings Shifting to Money Market Accounts

Total insured share accounts increased 8.72 percent. Money market shares increased
15.60%. Regular shares comprise 26.23 percent of total share accounts; share
certificates comprise 33.21 percent; money market shares comprise 18.87 percent; and
share draft accounts comprise 10.81 percent; and all other share accounts comprise
10.88 percent.


Loans Increased

Loan growth of 7.08 percent resulted in an increase in total loans by $37.43 billion.
Total net loans of $566 billion comprise 69 percent of credit union assets.          First
mortgage real estate loans increased 14.49 percent. First mortgage real estate loans
are the largest single asset category with $207.92 billion accounting for 36.74 percent of
all loans. Other real estate loans of $96.56 billion account for 17.06% of all loans.
Used car loans of $94.29 billion were 16.66% of all loans, while new car loans
amounted to $81.54 billion or 14.41% of total loans. Credit card loans totaled $32.72
billion or 5.78% of total loans and other loans totaled $52.97 billion for 9.35% of total
loans.




                                            11
    NCUA OIG Semiannual Report to The Congress                    March 2009




                              LEGISLATIVE HIGHLIGHTS


NCUA Associate General Counsel Albin Testifies on Credit Card and Overdraft Protection
Legislation

NCUA Associate General Counsel Sheila Albin testified on March 19, 2009, before the
House Financial Services Subcommittee on Financial Institutions and Consumer Credit
addressing legislation designed to aid consumers: H.R. 627, the ―Credit Cardholders’
Bill of Rights Act of 2009,‖ and H.R. 1456, the ―Consumer Overdraft Protection Fair
Practices Act of 2009.‖

Crafted to level the playing field and stop or restrict unfair, deceptive and anti-
competitive consumer credit card practices (UDAP), the credit card bill would act to
protect cardholders against arbitrary interest rate hikes, being unfairly penalized when
an account is current, due-date gimmicks, misleading terms, and excessive fees. The
bill would also prevent card issuers from providing subprime cards to those who cannot
afford them. The overdraft protection bill would extend protections of the Truth In
Lending Act to overdraft protection programs and services provided by financial
institutions. NCUA’s general lending regulations require credit union boards to establish
a policy and fees for overdraft protection programs and NCUA examiners consider the
reasonableness of fee income when reviewing credit union programs.

Albin testified that ―[t]he NCUA believes the UDAP rule addresses most of the practices
and problems to which H.R. 627 is directed.‖ She indicated that to the extent areas of
concern remain, ―[t]he NCUA is prepared to work with its sister agencies to address
those problems.‖


President Obama Signs Law to Extend CLF Borrowing Cap Increase

On March 11, 2009, President Obama signed an omnibus appropriations measure, H.R.
1105, into law, which keeps the increased NCUA Central Liquidity Loan Facility (CLF)
loan cap at its increased statutory level through September 30, 2009. Previously, on
September 20, 2008, President Bush signed into law a government funding resolution
that contained a borrowing cap increase for legislation to fund operations of the federal
government through March 6, 2009. The law included a provision that temporarily lifted
an arbitrary $1.5 billion lending cap placed on the CLF, allowing it to lend up to
approximately $41.5 billion to the credit union system.       House Financial Services
Committee Chairman Barney Frank (D-MA) has asked Federal Reserve Chairman Ben
Bernanke to support permanently lifting the CLF cap.




                                           12
    NCUA OIG Semiannual Report to The Congress                    March 2009




House Committee Approves NCUA Request to Extend NCUSIF Restoration

On February 5, 2009, the House Committee on Financial Services approved H.R. 786,
the Committee’s TARP reform legislation, adding two provisions NCUA Chairman Fryzel
had recommended as imperative to the credit union system—increasing NCUA Treasury
borrowing authority and providing for a 5-year restoration period to replenish the
NCUSIF. The House Committee included both provisions in the adopted legislation.
The amendment on extension of the premium was proposed by Pennsylvania
Congressman Paul Kanjorski, while the amendment on the borrowing authority increase
was proposed by Illinois Congressman Luis Gutierrez.             The Committee has
recommended that the bill be considered by the House as a whole.
The amended version of H.R. 786, as reported to the House on February 23, 2009,
would amend the FCUA to: (1) increase to $6 billion the borrowing authority of the
NCUA; and (2) require the NCUA Board to establish a Share Insurance Fund (SIF)
restoration plan whenever the Board projects that the SIF equity ratio actually does fall
below the required minimum amount. The proposed bill sets forth restoration plan
requirements.
Chairman Fryzel had also requested expanded authority to use the NCUSIF to address
systemic risk under extreme circumstances when the Federal Credit Union Act, Section
208, authority proves inadequate. The Committee did not address this request.


House Committee Introduces Bill to Make Financial Regulatory IGs Presidential
Appointments

On February 4, 2009, the House Committee on Government Reform introduced H.R.
885, the ―Improved Financial and Commodity Markets Oversight and Accountability
Act.‖ The bill, sponsored by Congressman John Larson (D-CT), would make the NCUA
IG, along with the IGs at the Federal Reserve Board, the Commodity and Futures
Trading Commission, the Securities and Exchange Commission, and the Pension
Benefit Guaranty Corporation, establishment IGs appointed by the President and
confirmed by the Senate. Currently, the IGs at these agencies are appointed by their
respective agency heads.

The NCUA IG William A. DeSarno testified before the Subcommittee on Government
Management, Organization, and Procurement, Committee on Oversight and
Government Reform, on March 25, 2009, on H.R. 885 as well as on his role and
responsibilities as an IG at an agency charged with regulating and insuring credit
unions. In particular, Mr. DeSarno spoke of the increasing strategic challenges facing
the NCUA Office of Inspector General as a result of the current economic crisis.




                                           13
    NCUA OIG Semiannual Report to The Congress                       March 2009



Mr. DeSarno also discussed his opposition to H.R. 885, stating that he did not believe
the bill would enhance IG independence but could, rather, have a deleterious impact on
his office’s ability to handle its significantly increased workload, due to the material loss
review work mandated in the wake of recent and ongoing credit union failures.


NCUA Finalizes Unfair and Deceptive Consumer Credit Rule

On December 18, 2008, the NCUA Board joined the FRB and the Office of Thrift
Supervision (the Agencies) in approving a final rule, Part 706, governing unfair or
deceptive acts or practices related to credit cards. The Agencies exercised their
authority under section 5(a) of the Federal Trade Commission Act (FTC Act) to enact
their respective agency rules. NCUA’s ruling, which applies only to credit unions,
recognized that in some cases disclosures do not provide adequate protection for
consumers. The rule restricts or prohibits certain practices that are considered unfair
based on the test set forth in the FTC Act, including (1) it causes or is likely to cause
substantial injury to consumers; (2) the injury is not reasonably avoidable by consumers
themselves; and (3) the injury is not outweighed by countervailing benefits to
consumers or to competition. The final rule is effective July 1, 2010.


NCUA Finalizes Rules on Prompt Corrective Action and Definition of Post-Merger Net
Worth

On November 10, 2008, NCUA adopted a final rule implementing a statutory
amendment that expanded the definition of ―net worth‖ that applies to natural person
credit unions under regulatory capital standards known as ―prompt corrective action.‖
The expanded definition allows an acquiring credit union, in a merger of natural person
credit unions, to retain the merging credit union’s retained earnings with its own to
determine the acquirer’s post-merger net worth. For a merger in which the acquirer is a
corporate credit union, the proposed rule similarly redefines corporate credit union
capital to allow the acquirer to combine with its capital the retained earnings of the
merging credit union to determine the acquirer’s post-merger net worth. The rule
applies to credit mergers that took place after December 31, 2008, that are subject to
financial reporting under Financial Accounting Statement No. 141(R), Business
Combinations (2007).


President Bush Signs into Law “Inspector General Reform Act of 2008”

On     October       14,   2008,     President   Bush      signed     into   law     the
―Inspector General Reform Act of 2008,‖ P.L. 110-409. The law was designed to
guarantee that a forum exists for Inspectors General (IGs) to coordinate and share best
practices; that IGs remain independent from inappropriate influence or pressure from the


                                             14
    NCUA OIG Semiannual Report to The Congress                    March 2009



government agencies they oversee; and that IG reports are easily accessible to the
public.

The legislation was introduced last year in the Senate by Senators Claire McCaskill (D-
Missouri), Susan Collins (R-Maine), and Joe Lieberman (I-Connecticut). Congressman
Jim Cooper (D-Tennessee) introduced similar legislation in the House of
Representatives. After the Senate and the House passed their respective versions of the
bill earlier this year, legislators from both chambers worked together to negotiate a
compromise and agree on identical language for the bill that was, ultimately, sent to the
President for signature.


President Bush Signs into Law “Emergency Economic Stabilization Act of 2008”

On October 3, 2008, President George W. Bush signed into law the ―Emergency
Economic Stabilization Act of 2008,‖ which temporarily increased federal deposit
insurance coverage. The new law amended the share insurance coverage provided by
NCUA through the NCUSIF and the deposit insurance provided by the FDIC. The NCUA
Board also took action on October 3 to eliminate the concept of ―qualified beneficiary‖ in
determining share insurance coverage. The newly enacted rule served to maintain parity
between insurance coverage offered by NCUA and the FDIC. During the reporting
period, NCUA worked to update all related publications to reflect these changes.

   Statutory Share Insurance Change: $250,000

The new law became effective on October 3, 2008, and will remain in place through
December 31, 2009. The law provided for an increase in the minimum NCUSIF coverage
from $100,000 to $250,000 on member share accounts. This includes all account types,
such as regular share, share draft, money market, and certificates of deposit. Individual
Retirement Account and Keogh account coverage remains at up to $250,000 separate
from other types of accounts owned.
The increase in the minimum share insurance coverage to $250,000 will not result in an
increase to members’ share insurance premium or operating fee. Changes were made to
the 5300 report for the December 2008 reporting cycle to address the new coverage
level.




                                           15
    NCUA OIG Semiannual Report to The Congress                   March 2009




                  OFFICE OF THE INSPECTOR GENERAL


The Office of the Inspector General was established at the NCUA in 1989 under
the authority of the Inspector General Act of 1978, as amended in 1988. The
staff consists of the Inspector General, Counsel to the Inspector General, Deputy
Inspector General for Audits, Director of Investigations, Auditor, two Senior
Auditors, Senior Information Technology Auditor, and Office Manager.

The Inspector General reports to, and is under the general supervision of, the
NCUA Board. The Inspector General is responsible for:

      1. Conducting, supervising, and coordinating audits and investigations of
         all NCUA programs and operations;

      2. Reviewing policies and procedures to ensure efficient and economic
         operations as well as preventing and detecting fraud, waste, and
         abuse;

      3. Reviewing existing and proposed legislation and regulations to
         evaluate their impact on the economic and efficient administration of
         agency programs; and

      4. Keeping the NCUA Board and the Congress apprised of significant
         findings and recommendations.




                                       16
NCUA OIG Semiannual Report to The Congress   March 2009




                                   17
    NCUA OIG Semiannual Report to The Congress                     March 2009



                                  AUDIT ACTIVITY

Audit Reports Issued

OIG-08-09 –November 7, 2008
Home Mortgage Disclosure Act Data Analysis Review

The Home Mortgage Disclosure Act (HMDA), implemented by the Federal Reserve
Board’s (FRB) Regulation C (12 CFR 203), requires credit unions and other financial
institutions to compile and disclose data about home purchase loans, home
improvement loans, and refinancings they originate or purchase, or for which they
receive applications. In addition, several loan applicant/ borrower characteristics must
also be reported.

One of the purposes of Regulation C is to assist in identifying possible discriminatory
lending patterns and enforcing compliance with anti-discriminatory statutes. The NCUA
is responsible for enforcing HMDA regulations for all credit unions.

The NCUA OIG initiated an audit survey to determine what NCUA is doing to ensure
that HMDA data is used and followed up on to prevent instances of possible
discriminatory lending practices. We concluded that NCUA is not utilizing HMDA data
to the fullest extent possible in identifying possible discriminatory lending. However,
NCUA does determine that all required credit unions file their HMDA information in a
timely manner.

NCUA’s efforts in determining the accuracy of HMDA filed data are somewhat limited.
NCUA district examiners may review HMDA data for accuracy if there is a related risk
identified during the exam scoping process. Some of the potential risk indicators could
be, late filing of HMDA data in a prior year or a credit union listed on the Federal
Reserve’s ―pricing outlier‖ report. NCUA fair lending examiners determine the accuracy
of HMDA data during their fair lending examination process. However, only five fair
lending examinations are performed each year for each of the five NCUA regions.

In addition, NCUA’s discriminatory lending analytical efforts are also limited. Annually,
the Federal Reserve Board sends a ―pricing outlier‖ report to NCUA, which in turn
forwards it to the appropriate NCUA regional office. This report isolates credit unions
which potentially discriminate in their mortgage pricing. According to NCUA’s Office of
Examination and Insurance (E&I), there are approximately one or two credit unions on
the list each year.

NCUA performs limited analysis of loan application register HMDA data for other
potential discriminatory lending patterns. According to E&I, that office is in the process
of developing such analysis. This analysis is expected to be operational in 2009.



                                           18
    NCUA OIG Semiannual Report to The Congress                      March 2009



The OIG made one recommendation addressing the above concerns. Management
agreed with the recommendation and has plans or is in the process of taking corrective
action to address the recommendation.


OIG-08-10 – November 26, 2008
Material Loss Review of Huron River Area Credit Union

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a Material Loss Review of Huron River Area Credit Union (Huron). We
reviewed Huron to: (1) determine the cause(s) of Huron’s failure and the resulting loss
to the NCUSIF; and (2) assess NCUA’s supervision of the credit union. To achieve
these objectives, we analyzed NCUA and Michigan State Supervisory Authority (SSA)
examination and supervision reports and related correspondence; interviewed
management and staff from NCUA Region I and the Michigan SSA; and reviewed
NCUA and SSA guides, policies and procedures, NCUA Call Reports, and NCUA
Financial Performance Reports (FPRs).

We determined that credit risk and strategic risk were major factors in Huron’s failure.
Huron management did not adequately manage and monitor the credit risk within its
loan program. In addition, Huron management made strategic decisions that put
Huron’s continued financial viability at significant risk. Specifically, Michigan SSA and
NCUA examiners determined, and the OIG agrees, that Huron management:

         Did not exercise due diligence by evaluating the third party relationship held
          with its lender, the Construction Loan Company (CLC);
         Allowed CLC to concentrate a majority of the credit union’s loan portfolio in a
          speculative Florida real estate construction project;
         Allowed CLC to make construction loans to applicants outside the credit
          union’s approved field of membership;
         Misclassified construction loans and violated NCUA’s Member Business Loan
          (MBL) limits;
         Did not have adequate liquidity controls in its ALM Policy; and
         Failed to develop or follow adequate plans to guide the direction of the credit
          union and the Florida construction loan program.

We determined the following management actions also contributed to Huron’s
failure:

         Huron management was not forthcoming with the Michigan SSA and NCUA
          examiners about the Florida construction loan program.
         Huron management may have ignored warnings regarding the expected
          decline of housing values, in particular those in the Florida real estate market.



                                            19
    NCUA OIG Semiannual Report to The Congress                     March 2009



In addition, we determined NCUA and Michigan SSA examiners may not have
adequately monitored or reacted prudently or timely to trends indicating the safe and
sound operation of Huron may have been in jeopardy. Consequently, NCUA did not
adequately and timely address the credit and strategic risks Huron management caused
by entering Huron into an inherently risky and uncontrolled construction lending
program, which ultimately led to Huron’s worsening liquidity issues. Specifically, we
determined:

         Although the Michigan SSA and NCUA examiners expressed concerns
          regarding Huron’s liquidity, we believe they may not have adequately
          monitored or responded appropriately or timely to their concerns regarding
          this risk.
         We believe financial ratios and trends revealed Huron’s worsening liquidity
          position well before NCUA and the Michigan SSA officially identified the
          severity of the issue during the January 2007 joint examination.
         Huron’s liquidity position deteriorated rapidly after March 2005.

We made two suggestions and one recommendation to NCUA. We suggested NCUA
aggressively investigate and protect against perceived risks Federally Insured State
Credit Unions (FISCUs) may pose to the insurance fund. In addition, we suggested (1)
Region I officials continue a new procedure they established where analysts provide a
secondary review of national risk reports to better monitor FISCUs, and (2) NCUA
determine whether all Regional Offices should incorporate these procedures to provide
increased supervision of FISCUs. We also recommended NCUA management issue a
Supervisory Letter to all Federal and State examiners to alert them of the need to (1)
analyze and understand financial ratios and trends individually and as a group and
(2) thoroughly analyze pertinent qualitative data in order to adequately assess the
safety and soundness of credit union operations.

Management agreed with the first suggestion and the recommendation. Management
stated NCUA recently reinforced the need for aggressive investigation and protection
against perceived risks in Letter to Credit Unions No.: 08-CU-20 Evaluating Current
Risks to Credit Unions. Management stated the letter included supervisory guidance
given to NCUA examiners about diligent examination and supervision when potential
risk to a credit union is identified. In addition, management agreed in principle with the
second suggestion. Management stated if the suggestion is adopted on a national
level, the specific procedures should be left to each regional director to determine the
proper flow of information through their chain of command.




                                           20
    NCUA OIG Semiannual Report to The Congress                    March 2009




AUDITS IN PROGRESS


NCUA Financial Statements

Our contracting audit firm, Deloitte & Touche LLP, is working to issue its opinion on the
2008 financial statements of the National Credit Union Administration Operating Fund,
National Credit Union Share Insurance Fund, the Central Liquidity Facility, and the
Community Development Revolving Loan Fund.

The NCUA Operating Fund was established as a revolving fund managed by the NCUA
Board for the purpose of providing administration and service to the federal credit union
system. The National Credit Union Share Insurance Fund was established as a
revolving fund managed by the NCUA Board to insure member share deposits in all
Federal credit unions and qualifying state credit unions. The Central Liquidity Facility
was established as a mixed ownership government corporation managed by the NCUA
Board to improve general financial stability by meeting the liquidity needs of credit
unions. And the Community Development Revolving Loan purpose is to stimulate
economic activities in the communities served by low-income credit unions. This in turn
will result in increased income, ownership and employment opportunities for low-wealth
residents and other economic growth. We expect to issue our report by the end of April
2009.


Material Loss Reviews of Norlarco, Cal State 9 and New London

The FCU Act provides that a review is required when the NCUSIF incurs a material
loss. For purposes of determining whether the NCUSIF has incurred a material loss
with respect to an insured credit union such that the OIG must make a report, a loss is
material if it exceeds the sum of $10,000,000, and an amount equal to 10 percent of the
total assets of the credit union at the time at which the NCUA Board initiated assistance
under section 208, or was appointed liquidating agent. In addition, the IG’s may
perform a material loss review on selected cases that caused a loss of less than
$10,000,000 at the discretion of the Inspector General.

The OIG was notified by NCUA that the losses incurred by Norlarco and Cal State 9
credit unions had exceeded the statutory requirements, triggering a material loss review
by the OIG. New London was selected for a material loss review at the discretion of the
Inspector General due to the fraud allegations involved in this case. The scope of these
audits will include an analysis of the credit union’s transactions and activities to
determine the causes of failure and a review of the supervision of the credit union. The
review will be performed in accordance with Government Auditing Standards for
performance audits. Our objectives are to determine (1) the causes of the credit union’s
failure and resulting material loss to the share insurance fund; and (2) assess the

                                           21
    NCUA OIG Semiannual Report to The Congress                    March 2009




NCUA’s supervision of the institution, including implementation of the Prompt Corrective
Action requirements of the FCU Act. We expect to issue our report on Norlarco in April
2009 and on Cal State 9 and New London in the fall of 2009.


Significant Audit Recommendations on which Corrective Action Has Not Been Completed

As of March 31, 2009, there were no significant audit recommendations on reports
issued over six months ago that have not been either fully implemented or are in the
process of implementation.




                                          22
    NCUA OIG Semiannual Report to The Congress                    March 2009




                              INVESTIGATIVE ACTIVITY

In accordance with professional standards and guidelines established by the
Department of Justice, the OIG conducts investigations of criminal, civil, and
administrative wrongdoing involving agency programs, operations and personnel. Our
investigative program focuses on activities designed to promote accountability,
effectiveness, and efficiency, as well as fighting fraud, waste, and abuse in agency
programs and operations. In addition to our efforts to deter misconduct and promote
integrity awareness among agency employees, we investigate referrals and direct
reports of employee misconduct. Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, Federal criminal law, and
other statutes and regulations pertaining to the activities of NCUA employees.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. We examine these complaints to determine
whether there is any indication of NCUA employee wrongdoing or misconduct. If not,
we refer the complaint to the appropriate regional office for response, or close the
matter if contact with the regional office indicates that the complaint has already been
appropriately handled.

OIG HOTLINE CONTACTS

The OIG maintains a toll free hotline to enable employees and citizens to call with
information about suspected waste, fraud, abuse or mismanagement involving agency
programs or operations. We also receive complaints through an off-site post office box,
from electronic mail, and facsimile messages. All information received from any of
these sources is referred to as a hotline contact. The OIG hotline program is handled
by our Office Manager, under the direction of our Director of Investigations. The
majority of hotline contacts are from consumers seeking help with a problem with a
credit union. These contacts are referred to the appropriate NCUA

regional offices for assistance. During this reporting period, we referred 115 consumer
complaints to regional offices.

The OIG referred seven allegations of potential fraud at credit unions to the Office of
General Counsel.




                                          23
    NCUA OIG Semiannual Report to The Congress                       March 2009



INVESTIGATIONS


False Statements / Breach of Telecommuting Agreement / Violation of Agency Instructions /
Violations of Ethics Standards / Violation of Computer Security Rules of Behavior

During this reporting period, the OIG received an allegation that an NCUA employee
fabricated official agency documents related to her employment (position) within the
agency. The OIG initiated an investigation and concluded that the employee fabricated
documents using her agency-issued government computer during work hours in
violation of the Standards of Ethical Conduct for Employees of the Executive Branch
(Ethics Standards) as well as the agency’s Computer Security Rules of Behavior
(CSROB).

The OIG’s investigation into the initial allegations in this case gave rise to questions
about false statements the employee may have made to her supervisor regarding leave
requests and a telecommuting arrangement, which began in July 2008 and ended in
January 2009. The OIG subsequently expanded its investigation to encompass these
two issues. The investigation concluded that the employee had, in addition to the Ethics
Standards and CSROB violations, made statements that amounted to a violation of 18
U.S.C. 1001—False Statements, breached the terms of the Telecommuting Agreement
with the agency, and violated the agency’s Instruction on Telecommuting.

The matter was referred to management for appropriate disciplinary action.


Non-Compliance with Paperwork Reduction Act

The OIG received two referrals from the United States Government Accountability
Office (GAO), during this reporting period. The referrals were based on information
submitted anonymously to GAO’s FraudNet Operations Hotline. Both complaints
alleged that the agency engaged in violations of the Office of Management and Budget
(OMB) Paperwork Reduction Act (PRA). Investigations were conducted into both
matters. In the first instance, the investigation revealed that the agency’s actions
related to requests for specific data from the corporate credit unions were part of the
examination process and considered supervisory contacts. Therefore, we determined
the activities to be within the scope of the NCUA’s existing (active) OMB information
collection approval.

However, in the second case, the OIG found that the agency requested corporate credit
union payment system activity information that went beyond the scope of its current
OMB information collection approval. NCUA management explained that its need for
this information was critical in light of the current financial crisis confronting corporate



                                            24
    NCUA OIG Semiannual Report to The Congress                      March 2009




credit unions. Specifically, the agency stated that it needed to collect the information to,
in turn, respond to information requests from the Federal Reserve Board on payment
system operations in corporate credit unions.


Retaliation / Intimidation

During this reporting period, the OIG received a third party allegation that management
may have intimidated or attempted to influence an employee who initiated an
information request as part of her assigned duties and responsibilities. The OIG
investigated the allegation and found no basis for concluding that management’s
discussion with the employee, about the information request, was intended to intimidate
her or influence the outcome of a review of an agency program that was being
conducted at the time. Of particular
significance was the employee’s own statement that she did not feel intimidated or
influenced by management’s discussions with her about the situation.


Time and Attendance Fraud

The U.S. Office of Special Counsel (OSC) referred an anonymous complaint to the OIG
alleging misconduct on the part of an agency employee. Specifically, the complaint
alleged that an NCUA manager abused time and attendance requirements by failing to
work full days and failing to file the required documentation for absences. Moreover,
the complaint alleged that although more senior management was aware of the
employee’s behavior, no disciplinary action was taken. The OIG inquired into the matter
and concluded that there was insufficient evidence to either substantiate or disprove the
allegations raised based on the information outlined in the OSC complaint.




                                            25
    NCUA OIG Semiannual Report to The Congress                      March 2009




                    LEGISLATIVE AND REGULATORY REVIEWS

Section 4(a) of the Inspector General Act requires the Inspector General to review
existing and proposed legislation and regulations relating to the programs and
operations of the NCUA and to make recommendations concerning their impact.
Moreover, we routinely review proposed agency instructions and other policy guidance,
in order to make recommendations concerning economy and efficiency in the
administration of NCUA programs and operations and the prevention and detection of
fraud, waste and abuse.

During the reporting period, the OIG reviewed 30 items, including proposed and final
legislation and regulations, comments to proposed regulations, Letters to Credit Unions,
and agency Interpretive Rulings and Policy Statements (IRPS). We issued formal
comments to and testified before Congress on one legislative item, H.R. 885.



                SUMMARY OF STATUTES AND REGULATIONS REVIEWED
           Legislation                                  Title
P.L. 111-5                    ―American Recovery and Reinvestment Act
                               of 2009‖
H.R. 885                      ―Improved Financial and Commodities Markets
                              Oversight and Accountability Act‖
H.R. 478                      ―Federal Agency Performance Review and
                               Efficiency Act"
H.R. 786                      ―To Make Permanent the Temporary Increase in
                               Deposit Insurance Coverage, and for Other
                               Purposes‖
S. 372, H.R. 1507             ―Whistleblower Protection Enhancement Act
                               of 2009‖
H.R. 1424                     ―Emergency Economic Stabilization Act of 2008‖



      Regulations/Rulings                                   Title
12 CFR Parts 701, 742            Final Rule: Regulatory Flexibility Regarding
                                 Ownership of Fixed Assets
12 CFR Part 706                  Final Rule: Unfair or Deceptive Acts or Practices
12 CFR Part 740.4                Final Rule: Accuracy of Advertising and Notice
                                 of Insured Status
12 CFR Parts 702, 704            Final Rule: Prompt Corrective Action; Amended
                                 Definition of Post-Merger Net Worth
12 CFR 701, 705                  Final Rule: The Low-Income Definition


                                          26
    NCUA OIG Semiannual Report to The Congress                         March 2009


12 CFR Part 701                     IRPS 08-2 – Service to Underserved Areas
12 CFR Part 721                     Incidental Powers
12 CFR Parts 740, 745               Final Rule: Display of Official Sign: Temporary
                                    Increase in Standard Maximum Share Insurance
                                    Amount; Coverage for Custodial Loan Accounts
12 CFR Part 745                     Final Rule: Share Insurance for Revocable Trust
                                    Accounts
12 CFR Part 707                     Proposed Rule: Truth-in-Savings Act Disclosures
12 CFR Parts 741, 748, 749          Proposed Rule: Credit Union Reporting
12 CFR Part 701                     Proposed Rule: Operating Fees
                                    Proposed Interagency Appraisal and Evaluation
                                    Guidelines (related to 12 CFR Part 722)
12 CFR Part 740.4                   Comments: Accuracy of Advertising and Notice of
                                    Insured Status
12 CFR Parts 740, 745               Comments: Display of Official Sign; Temporary
                                    Increase in Standard Maximum Share Insurance
                                    Amount; Coverage for Custodial Loan Accounts
12 CFR Part 745                     Comments: Share Insurance for Revocable Trust
                                    Accounts
Letter to Credit Unions
09-CU-08                            Filing Trends in Mortgage Loan Fraud
Letter to Credit Unions             Corporate Stabilization Program – Conservatorship
09-CU-07                            of U.S. Central FCU and Western Corporate FCU
Letter to Credit Unions             State of the Credit Union Industry as of
09-CU-05                            December 31, 2008
Letter to Credit Unions
09-CU-02                            Corporate Credit Union System Strategy
Letter to Credit Unions
09-CU-01                            Risk Management of Remote Deposit Capture
Letter to Federal Credit Unions     Supervision Considerations for Natural Person
09-FCU-04                           Credit Unions and the Announced Corporate
                                    Stabilization Efforts
Letter to Federal Credit Unions
09-FCU-03                       M   Membership Data Collection
Letter to Federal Credit Unions     Permissible Investments – Depository Institution
09-FCU-01                       G   Debt Guaranteed by NCUSIF or the FDIC




                                              27
   NCUA OIG Semiannual Report to The Congress                         March 2009




                                     TABLE I
                        INSPECTOR GENERAL ISSUED REPORTS
                              WITH QUESTIONED COSTS

                                                      Number of   Questioned   Unsupported
                                                       Reports      Costs         Costs

         For which no management decision had
  A.     been made by the start of the reporting
         period.                                         0           $0            $0

  B.     Which were issued during the reporting
         period.                                         0            0            0
         Subtotals (A + B)                               0            0

  C.     For which management decision was
         made during the reporting period.               0            0            0


         (i) Dollar value of disallowed costs
                                                         0            0            0
        (ii) Dollar value of costs not allowed
                                                         0            0            0
         For which no management decision has
  D.     been made by the end of the reporting
         period.                                         0            0            0
         Reports for which no management
  E.     decision was made within six months
         of issuance.                                    0            0            0


Questioned costs are those costs the OIG has questioned because of alleged violations
of laws, regulations, contracts, or other agreements; findings which at the time of the
audit are not supported by adequate documentation; or the expenditure for the intended
purpose is unnecessary or unreasonable.

Unsupported costs (included in "Questioned Costs") are those costs the OIG has
questioned because of the lack of adequate documentation at the time of the audit.




                                                 28
    NCUA OIG Semiannual Report to The Congress                       March 2009




                                TABLE II
                  INSPECTOR GENERAL ISSUED REPORTS WITH
              RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                             Number of        Dollar
                                                              Reports         Value

           For which no management decision had been
   A.                                                           0                 $0
           made by the start of the reporting period.

   B.       Which were issued during the reporting period.      0                 0

                          Subtotals (A + B)                     0                 0

            For which management decision was made
   C.
           during the reporting period.                         0                 0

          (i) Dollar value of recommendations agreed to
              by management.                                   N/A             N/A

          (ii) Dollar value of recommendations not agreed
               to by management.                               N/A             N/A

            For which no management decision was made
   D.
           by the end of the reporting period.                  0                 0

            For which no management decision was made
   E.
           within six months of issuance.                       0                 0


Recommendations that "Funds to be Put to Better Use" are those OIG
recommendations that funds could be used more efficiently if management took actions
to reduce outlays, de-obligate funds from programs/operations, avoid unnecessary
expenditures noted in pre-award reviews of contracts, or any other specifically identified
savings.




                                              29
NCUA OIG Semiannual Report to The Congress               March 2009




                               TABLE III
                     SUMMARY OF OIG ACTIVITY
               OCTOBER 1, 2008 THROUGH MARCH 31, 2009

                    PART I – AUDIT REPORTS ISSUED
  Report                                                           Date
  Number                              Title                       Issued

               Home Mortgage Disclosure Act Data
 OIG-08-09     Analysis Review                                  11/07/2008

              Material Loss Review of Huron River
 OIG-08-10    Area Credit Union                               11/26/2008
          PART II – AUDITS IN PROGRESS (as of March 31, 2009)

               NCUA Financial Statement Audit

               Material Loss Review of Norlarco FCU

               Material Loss Review of Cal State 9 FCU

               Material Loss Review of New London FCU




                                     30
NCUA OIG Semiannual Report to The Congress                       March 2009




                   INDEX OF REPORTING REQUIREMENTS


SECTION                        DATA REQUIRED                                PAGE REF

 4(a)(2)    Review of Legislation and Regulations                              26

 5(a)(1)    Significant Problems, Abuses, or Deficiencies Relating to the      18
            Administration of Programs and Operations Disclosed During
            the Reporting Period.

 5(a)(3)    Recommendations with Respect to Significant Problems,              18
            Abuses or Deficiencies.

 5(a)(3)    Significant Recommendations Described in Previous                  22
            Semiannual Reports on Which Corrective Action Has Not
            Been Completed.

 5(a)(4)    Summary of Matters Referred to Prosecution Authorities            None
            and Prosecutions, Which Have Resulted.

 5(a)(5)    Summary of Each Report to the Board Detailing Cases               None
            Where Access to All Records Was Not Provided or where
            Information Was Refused.

 5(a)(6)    List of Audit Reports Issued During the Reporting Period.          30

 5(a)(7)    Summary of Particularly Significant Reports.                       18

 5(a)(8)    Statistical Tables on Audit Reports With Questioned Costs.         28

 5(a)(9)    Statistical Tables on Audit Reports With Recommendations           29
            That Funds Be Put To Better Use.

 5(a)(10)   Summary of Each Audit Report Issued Before the Start of           None
            the Reporting Period for Which No Management Decision
            Has Been Made by the End of the Reporting Period.

 5(a)(11)   Description and Explanation of Reasons for Any                    None
            Significant Revised Management Decision Made During
            the Reporting Period.

 5(a)(12)   Information Concerning Significant Management Decisions           None
            With Which the Inspector General is in Disagreement.




                                        31
NCUA OIG Semiannual Report to The Congress            March 2009




          WE WANT TO HEAR FROM YOU


                CALL OUR TOLL-FREE HOTLINE TO REPORT
                       FRAUD, WASTE, OR ABUSE:

                         1-800-778-4806
                       WASHINGTON METRO AREA

                            703-518-6357

                              OR WRITE:
                NATIONAL CREDIT UNION ADMINISTRATION
                  OFFICE OF THE INSPECTOR GENERAL
                             P.O. BOX 25705
                       ALEXANDRIA, VA 22313-5705


               YOU MAY CALL ANONYMOUSLY, OR REQUEST
                THAT YOUR CALL BE KEPT CONFIDENTIAL


            OIG REPORTS AND OTHER INFORMATION ARE
                  AVAILABLE AT WWW.NCUA.GOV/OIG




                                   32
